Report No. DODIG-2013-019             November 9, 2012





       Defense Institution Reform Initiative Program 

              Elements Need to Be Defined

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
CCMR                          Center for Civil-Military Relations
DASD PSO                      Deputy Assistant Secretary of Defense for Partnership
                              Strategy and Stability Operations
DIB                           Defense Institution Building
DIRI                          Defense Institution Reform Initiative
DSCA                          Defense Security Cooperation Agency
MoD                           Ministry of Defense
NATO                          North Atlantic Treaty Organization
USD(P)                        Under Secretary of Defense for Policy
WIF                           Warsaw Initiative Fund
                                 INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                4800 MARK CENTER DRIVE 

                             ALEXANDRIA, VIRGINIA 22350-1500




                                                                           November 9, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR POLICY
               DIRECTOR, CENTER FOR CIVIL-MILITARY RELATIONS

SUBJECT: Defense Institution Reform Initiative Program Elements Need to Be Defined
         (Report No. DODIG-2013-019)

We are providing this report for review and comment. Deputy Assistant Secretary of
Defense for Partnership Strategy and Stability Operations program officials administered the
Defense Institution Reform Initiative Program since its inception without a defined and
published program mission and goals, program strategy, or performance measures. As a
result, program officials did not have a sufficient basis for determining the program’s
effectiveness in partnering with 17 countries or its use of the $20.2 million provided to the
program as of 3rd Quarter FY 2012. We considered management comments on a draft of
this report when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We received
comments from the Deputy Assistant Secretary of Defense for Partnership Strategy and
Stability Operations and the Director, Center for Civil-Military Relations, on
recommendations made in this report. The Deputy Assistant Secretary’s comments were
partially responsive because the comments did not indicate whether the planned
DoD Instruction would require security cooperation activities to coordinate their
DIB-related efforts. In addition, the comments did not include completion dates for the
agreed-upon actions. The Director agreed with the recommendations; however, his
comments were nonresponsive because he did not describe what actions he plans to take and
when he plans to complete them. We request that the Deputy Assistant Secretary and the
Director provide additional comments by December 10, 2012.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file
containing your comments. Portable document format (.pdf) copies of your comments must
have the actual signature of the authorizing official for your organization. We are unable to
accept the /Signed/ symbol in place of the actual signature. Comments provided on the draft
report must be marked and portion-marked, as appropriate, in accordance with DoD
Manual 5200.1. If you arrange to send classified comments electronically, you must send
them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




                                             Amy J. Frontz
                                             Principal Assistant Inspector General
                                                for Auditing
 Report No. DODIG-2013-019 (Project No. D2012-D000JA-0092.000)                              November 9, 2012


                 Results in Brief: Defense Institution Reform
                 Initiative Program Elements Need
                 to Be Defined
What We Did                                                  program officials did not adequately implement
                                                             tracking and documentation procedures, a complete
Our objective was to determine the effectiveness of          record of what was accomplished during DIRI
the Defense Institution Reform Initiative (DIRI)             Program engagements and lessons-learned from those
Program process regarding identifying and sustaining         engagements were not easily accessible or
the defense capabilities of its partner nations. We          disseminated. Lastly, the lack of defense institution
determined whether the DIRI Program published                building policy allowed overlapping missions in
information was sufficient to define the program’s           DoD’s defense institution building-related efforts. An
mission and goals, program strategy, and performance         emerging and growing program, DIRI needs written
measures and whether defense institution building            guidance to govern the program and define how it fits
policy or procedures existed. We also determined             with other U.S. security cooperation and defense
whether Center for Civil-Military Relations (CCMR)           institution building efforts. In addition, corrective
program officials maintained sufficient DIRI Program         actions that officials take will help ensure the efficient
documentation.                                               use of the approximately $12 million requested for
                                                             the DIRI Program in FY 2013.
What We Found
Deputy Assistant Secretary of Defense for Partnership        What We Recommend
Strategy and Stability Operations (DASD PSO)                 The Under Secretary of Defense for Policy should
program officials administered the DIRI Program              issue guidance that defines the DIRI Program’s
since its inception in 2009 without a defined and            mission and goals, program strategy, and performance
published program mission and goals, program                 measures. He should also issue guidance that defines
strategy, or performance measures. Furthermore,              defense institution building roles and responsibilities
CCMR program officials did not adequately                    and implement procedures that require the
implement procedures to establish a clear tracking           coordination of a defense institution building
process for DIRI Program engagements or document             program’s mission and goals, program strategy, and
all DIRI Program efforts. Specifically, CCMR                 performance measures with other security cooperation
program officials did not prepare 24 event plans for         activities. In addition, the Director, CCMR, should
the 175 DIRI Program engagements held through                develop and implement procedures to document all
August 2009 and April 2012. In addition, 149 event           individual DIRI Program efforts, provide evidence of
plans and 173 engagement reports lacked approval.            review and approval of those documents, and
This occurred because the Under Secretary of                 establish a clear tracking method for each effort.
Defense for Policy did not develop defense institution
building policy to guide the DIRI Program or any
other defense institution building-related efforts.
                                                             Management Comments and
Also, DASD PSO and CCMR program officials                    Our Response
stated they wanted flexibility to execute the DIRI           The Deputy Assistant Secretary of Defense for
Program. As a result, DASD PSO program officials             Partnership Strategy and Stability Operations and the
had an insufficient basis for determining the                Director, CCMR, agreed or partially agreed with the
program’s effectiveness in partnering with                   report recommendations, but not all their comments
17 countries or of its use of the $20.2 million              were responsive. We request comments in response
provided to the program as of 3rd Quarter FY 2012.           to the final report by December 10, 2012, as indicated
Furthermore, without defined performance measures,           in the recommendation table on page ii.
DASD PSO and CCMR program officials could not
account for the program’s results. Because CCMR
                                                         i
Report No. DODIG-2013-019 (Project No. D2012-D000JA-0092.000)       November 9, 2012



      Recommendations Table

                  Management                     Recommendations      No Additional
                                                Requiring Comment   Comments Required
      Under Secretary of Defense for Policy   1.a, 1.b, 1.c

      Director, Center for Civil-Military     2
      Relations


      Please provide comments by December 10, 2012.




                                                  ii
Table of Contents


Introduction	                                                             1     


      Objectives                                                          1     

      Background                                                          1     

      Review of Internal Controls                                         4


Finding. Necessary DIRI Program Elements Not Defined	                     5


      Elements Needed for Program Success                                 5

      DIRI Program Lacked Mission and Goals, Program Strategy, 

        and Performance Measures                                          6

      Procedures Needed to Consistently Document DIRI Program Efforts     8

      USD(P) Did Not Develop DIB Policy                                   8

      DIRI Program Officials Wanted Flexibility                           9

      DIRI Program Challenges and Overlapping Mission Requirements        9

      Program Officials Taking Steps to Improve Both DIB and DIRI 

        Program Structures                                               11 

      Conclusion                                                         11     

      Management Comments on the Finding and Our Response                12 

      Recommendations, Management Comments, and Our Response             16 


Appendixes

      A. 	Scope and Methodology                                          18 

             Prior Coverage                                              19     

      B. DIB Entities	                                                   20 

      C. DIRI Program Documentation 	                                    22 


Management Comments

      Deputy Assistant Secretary of Defense for Partnership Strategy 

        and Stability Operations                                         24 

      Center for Civil-Military Relations                                27 

Introduction
Objectives
Our objective was to determine the effectiveness of the Defense Institution Reform
Initiative (DIRI) Program process regarding identifying and sustaining the defense
capabilities of its partner nations. We determined whether the DIRI Program’s published
information was sufficient to define the program’s mission and goals, program strategy, and
performance measures and whether defense institution building policy (DIB) or procedures
existed. We also determined whether Center for Civil-Military Relations (CCMR) program
officials maintained sufficient DIRI Program documentation. See Appendix A for the scope
and methodology and prior coverage related to building defense institution capacity, or
DIB.

Background
According to the DoD Quadrennial Defense Review, February 1, 2010, one of DoD’s
main priorities is to prevent and deter conflict. The Quadrennial Defense Review states
that part of DoD’s strategy is to help build the capacity of partners to maintain and
promote stability and that such an approach requires working closely with U.S. allies and
partner nations to leverage existing alliances and create conditions to advance common
interests. The DIRI Program is one of the ways DoD planned to accomplish this strategy.

Security Cooperation and DIB
In DoD Directive (DoDD) 5132.03, “DoD Policy and Responsibilities Relating to
Security Cooperation,” October 24, 2008, DoD defines security cooperation as the
activities it undertakes to encourage and enable international partners to work with the
U.S. to achieve strategic objectives. It includes all DoD interactions with foreign defense
and security establishments, including all DoD-administered security assistance programs
that:

      build defense and security relationships that promote specific U.S. security
       interests, including all international armaments cooperation activities and security
       assistance activities;
      develop allied and friendly military capabilities for self-defense and multinational
       operations; and
      provide U.S. forces with peacetime and contingency access to host nations.

DIB efforts are a subset of security cooperation. According to a 2011 DIB Conference
report, DIB refers to the programs, structures, and processes used to develop effective,
efficient, and accountable partner defense establishments, including defense ministries,
general and joint staffs and commands, and the supporting institutions of the armed
forces. DASD PSO program officials consider the DIRI Program to be a DIB program.




                                            1

Other DIB Programs
Like the DIRI Program, several other DoD organizations and programs either have a DIB
mission or conduct DIB-related initiatives as part of their security cooperation mission.
According to Deputy Assistant Secretary of Defense for Partnership Strategy and
Stability Operations (DASD PSO) and CCMR program officials, those organizations and
programs include the following: the Warsaw Initiative Fund (WIF) Program, the
Ministry of Defense Advisors Program, the six geographic Combatant Commands,1
Under Secretary of Defense for Policy (USD[P]) regional offices,2 the Defense Institute
of International Legal Studies, and the five DoD Centers for Regional Security Studies
(Regional Centers).3 See Appendix B for an organization chart that shows the
relationships among these entities as well as which entities have management or
oversight responsibility for specific DIB programs.

DIRI Program
According to DASD PSO program officials, the DIRI Program is a global institutional
capacity-building program that supports partner nation Ministries of Defense (MoDs) and
related institutions in their efforts to address capacity gaps in such key functions as:

       development of policy and strategy,
       ministerial organization,
       force development,
       budgets,
       human resources (including professional defense and military education),
       logistics,
       civil-military relationships, and
       interagency coordination.
         
According to the August 2011 DIRI Program organizational message, the DIRI Program
seeks to enhance DoD capacity to conduct DIB with a balanced, centralized, expert, and
efficient approach that includes deliberate outreach to security cooperation providers and
decisionmakers. In addition, through periodic and sustained engagement with partner
nations, the DIRI Program seeks to:



1
  The six geographic Combatant Commands are: U.S. Africa Command, U.S. European Command,
U.S. Pacific Command, U.S. Northern Command, U.S. Central Command, and U.S. Southern Command.
2
  The USD(P) regional offices are made up of eight different DASD offices. Four Regional DASDs report
to USD(P) through the Assistant Secretary of Defense for International Security Affairs: DASD (Middle
East), DASD (African Affairs), DASD (Europe and North Atlantic Treaty Organization [NATO]), and
DASD (Russia, Ukraine, Eurasia). Three Regional DASDs report to USD(P) through the Assistant
Secretary of Defense for Asian and Pacific Security Affairs: DASD (East Asia), DASD (South and
Southeast Asia), and DASD (Afghanistan, Pakistan, and Central Asia). DASD (Western Hemisphere)
reports to USD(P) through the Assistant Secretary of Defense for Homeland Defense and Americas’
Security Affairs.
3
  The five Regional Centers are: George C. Marshall European Center for Security Studies, Asia-Pacific
Center for Security Studies, Center for Hemispheric Defense Studies, Africa Center for Strategic Studies,
and Near East-South Asia Center for Strategic Studies.

                                                    2

        support partners, especially at the MoD and general or joint staff levels, in their
         effort to build and manage efficient, effective defense ministries and institutions;4
        support stronger, high-level defense relations between the Office of the Secretary
         of Defense and partner MoDs; and
        support sustainment of gains achieved through other U.S. Government security
         cooperation investments.

As of 3rd Quarter FY 2012, the DIRI Program worked with 17 partner nations and
received about $20.2 million in funding through FY 2010 and FY 2012.5 The Defense
Security Cooperation Agency (DSCA) requested about $12 million in FY 2013 funding
for the DIRI Program.

DIRI Program Responsibilities
On July 1, 2009, DASD PSO directed CCMR execute the DIRI Program. The DASD
PSO stated that his office, in coordination with the USD(P) regional offices and
geographic Combatant Commands, would provide policy guidance for and oversight of
the DIRI Program. He also stated that DSCA would provide program and budget
guidance for the DIRI Program.

USD(P)
USD(P) is the principal staff assistant and advisor to the Secretary and Deputy Secretary
of Defense for all matters on the formulation of national security and defense policy and
the integration of DoD policy and plans to achieve national security objectives. USD(P)
is also the principal staff assistant and advisor to the Secretary of Defense on security
cooperation matters, and oversees the direction and administration of DoD-wide policy
guidance for the execution of security assistance and security cooperation programs.

DASD PSO reports to USD(P) through the Assistant Secretary of Defense for Special
Operations/Low-Intensity Conflict. Part of DASD PSO’s responsibilities are to develop
policy and to oversee the development of DoD capabilities to successfully conduct
stability, security, transition, and reconstruction operations from peace to conflict, with
interagency and international partners, in support of national security objectives. In
addition, DASD PSO provides oversight for the DIRI Program and, according to a DASD
PSO program official, the Assistant Secretary of Defense for Special
Operations/Low-Intensity Conflict makes the final determination as to which partner
nations are selected for the DIRI Program.




4
  Effective, efficient defense ministries and institutions are ones that are under civilian control, transparent, 

accountable, and adhere to the rule of law. 

5
  The DIRI Program received approximately $5.8 million in FY 2010, $6.5 million in FY 2011, and 

$7.9 million in FY 2012, for a total of about $20.2 million, as of June 2012. 


                                                        3

DSCA
DSCA directs, administers, and provides overall policy guidance for the execution of
DoD security cooperation programs. According to a DSCA program official, DSCA
reports to USD(P) through the USD(P) Chief of Staff. According to DSCA program
officials, DSCA is responsible for providing DIRI Program budget execution and
transferring DIRI Program funding to CCMR through the Naval Postgraduate School and
to federally funded research and development centers through the Washington
Headquarters Service.

CCMR
CCMR was established in 1994 at the Naval Postgraduate School in Monterey,
California. It was originally established to assist newly emerging democracies in
addressing the civil-military challenges of the post-Cold War world. Since its founding,
CCMR’s mission evolved to include building partner capacity and improving interagency
and international coordination and cooperation by addressing civil-military challenges.
With regard to DIB initiatives, CCMR supports the DIRI Program as well as the WIF
Program. According to DASD PSO program officials, CCMR executes the DIRI
Program by assembling teams of subject-matter experts from the wider defense
community, U.S. Government stakeholders, and partner-nation defense personnel. The
team organized by CCMR works with the partner nation to design an implementation
strategy for building capacity in that nation that also supports U.S. strategic goals.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides a reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness for the DIRI Program. Specifically, DASD PSO program officials did
not define or publish program mission and goals, program strategy, or performance
measures for the DIRI Program. This occurred because USD(P) did not develop DIB
policy that would guide the DIRI Program, or any other DIB efforts. We will provide a
copy of the report to the senior official responsible for internal controls in USD(P).




                                           4

Finding. Necessary DIRI Program Elements
Not Defined
DASD PSO program officials administered the DIRI Program since its inception in 2009
without a defined and published program mission and goals, program strategy, or
performance measures. Furthermore, CCMR program officials did not adequately
implement procedures to establish a clear tracking process for DIRI Program
engagements or document all DIRI Program efforts. Specifically, CCMR program
officials did not prepare 24 event plans for the 175 DIRI Program engagements held
through August 2009 and April 2012. In addition, 149 event plans and 173 engagement
reports lacked approval. This occurred because USD(P) did not develop DIB policy that
would guide the DIRI Program or any other DIB efforts. Also, DASD PSO and CCMR
program officials stated they wanted flexibility to execute the DIRI Program.

As a result, DASD PSO program officials had an insufficient basis on which to determine
the program’s effectiveness in partnering with 17 countries or its use of the $20.2 million
provided to the program as of 3rd Quarter FY 2012. Without defined and published
performance measures, DASD PSO and CCMR program officials could not account for
the program’s results. Because CCMR program officials did not adequately implement
tracking and documentation procedures, a complete record of what was accomplished
during DIRI Program engagements and lessons-learned from those engagements were not
easily accessible or disseminated. Lastly, the lack of DIB policy allowed overlapping
missions in DoD’s DIB-related efforts. Because DIRI is an emerging and growing
program, it needs written guidance to govern the program and define how it fits with
other U.S. security cooperation and DIB-related efforts. In addition, corrective actions
taken will help ensure the efficient use of the approximately $12 million requested for the
DIRI Program in FY 2013.

Elements Needed for Program Success
According to Federal guidance, such as the Government Accountability Office (GAO),
“Standards for Internal Control in the Federal Government,” November 1999, a
program’s mission and goals, program strategy, and performance measures should be
defined to establish a program’s framework and reasonably ensure its success. A
program’s mission defines the program’s purpose. The program’s goals are the results or
achievements the program directs its efforts toward. A program’s strategy identifies the
processes and resources needed to achieve its goals. Lastly, performance measures are
values or characteristics used to measure progress toward goals. Together, these
elements provide a means for leadership to establish a unified program vision, provide
guidance, and monitor program efforts. In addition, these elements identify ways to
improve progress, reduce risks, and improve cost-effectiveness. According to
DoDD 5132.03, security cooperation activities, like the DIRI Program, should be
planned, programmed, budgeted, and executed with the same high degree of attention and
efficiency as other integral DoD activities.




                                            5

DIRI Program Lacked Mission and Goals, Program
Strategy, and Performance Measures
DASD PSO program officials operated the DIRI Program since its inception in 2009
without defined and published program mission and goals, program strategy, or
performance measures. DASD Program officials intended to use the WIF Program
methodology for the DIRI Program; however, DASD PSO and CCMR Program officials
found the methodology was not applicable to DIRI Program partner nations. Instead,
DASD PSO officials issued two DIRI Program documents describing the program;
however, the documents did not clearly define the program’s mission and goals, program
strategy, or performance measures and were not disseminated to all security cooperation
providers.

DIRI Program Methodology Evolved from the WIF Program
DASD PSO program officials intended to use the DIB process and methodology
developed under the WIF Program6 for the DIRI Program; however, CCMR officials
found the methodology was not applicable to DIRI Program partner nations. According
to the Director, CCMR, the WIF Program used DIB guidelines developed by the NATO
for use in Partnership for Peace7 countries. He stated Partnership for Peace countries
participated in the WIF Program because they wanted to become part of NATO, and
therefore, were willing to reform whichever parts of their MoD that NATO and the WIF
Program deemed necessary to gain entry into NATO. A DASD PSO program official
indicated that countries participating in the DIRI Program were not always willing to
reform specific parts of their MoD. For this reason, the Director, CCMR, stated the WIF
Program’s process and methodology would not work for the DIRI Program. However,
the Director stated the WIF Program’s process of determining a partner nation’s MoD
needs, developing a plan to fulfill those needs, and using subject-matter experts to do so
was also the basic framework of the DIRI Program. Accordingly, DASD PSO program
officials stated they adapted the WIF Program methodology for the DIRI Program.

DASD PSO Issued DIRI Program Memorandum and
Organizational Message
DASD PSO officials issued a DIRI Program memorandum and an organizational
message; however, those documents did not define the program’s strategy, mission and
goals, or performance measures and were not disseminated to all security cooperation
providers.




6
  The WIF Program is a U.S. program that DoD manages to improve Partnership for Peace countries
interoperability and integration with NATO and build their defense institutions or advance their defense
reform.
7
  The Partnership for Peace is a program of practical bilateral cooperation between individual
Euro-Atlantic partner countries and NATO. It allows partners to build an individual relationship with
NATO, choosing their own priorities for cooperation.

                                                     6

DASD PSO Issued DIRI Program Memorandum
On July 1, 2009, DASD PSO issued a memorandum to DSCA, the Naval Postgraduate
School, and the Global Center for Security Cooperation regarding the implementation of
the DIRI Program in FY 2010.8 In the memorandum, DASD PSO stated that CCMR was
the most appropriate institution to execute the DIRI Program. He directed that his office,
in coordination with USD(P) regional offices and geographic Combatant Commands,
would provide policy guidance for and oversight of the DIRI Program and that DSCA
would provide program and budget guidance for the DIRI Program. The memorandum
did not define the DIRI Program’s strategy, mission and goals, or performance measures,
aside from establishing which office would implement the DIRI Program and who would
provide policy and budget guidance. In addition, the memorandum was not addressed to
anyone other than DIRI Program officials.

DIRI Program Organizational Message Issued Two Years After
Program Initiation
On August 2, 2011, more than 2 years after the start of the DIRI Program, DASD PSO
program officials issued an organizational message through the Automated Message
Handling System9 that described the DIRI Program’s intent, roles, and process.10
Specifically, the message described the general process used by the DIRI Program to
build capacity in partner nations, but it did not describe how the DIRI Program related to
or differed from existing DIB-related efforts. In addition, the message did not establish
the DIRI Program’s strategy or any performance measures.

According to a DASD PSO program official, his office issued the message for
informational purposes and as a way to advertise the DIRI Program. However, the
message was available only to DoD personnel who had access to the Automated Message
Handling System, and the message contained instructions to recipients to forward it to
additional recipients for informational purposes. However, such additional recipients,
such as personnel at two of the Regional Centers, might not have ever received the
message. In addition, the message listed DASD PSO program officials as points of
contact to answer questions and provide details on the DIRI Program. A DASD PSO
program official listed as a specific point of contact told us he had not received any
feedback regarding the message as of May 2012. As USD(P) officials continue to grow
the DIRI Program, they need to ensure it has a sound foundation and framework that



8
  In a January 2, 2009, memorandum, the Assistant Secretary of Defense for Global Security Affairs
directed that DSCA implement the FY 2009 DIRI Program Pilot through the Global Center for Security
Cooperation. Although the DASD PSO’s memorandum was addressed to the Global Center for Security
Cooperation, according to a DASD PSO program official, the Global Center was not involved in the DIRI
Program after it completed the DIRI Program Pilot.
9
  The Automated Message Handling System is a web-based user interface that provides message profiling
and retrospective search capabilities. It uses message content, addressing information, and content of
attachments to route incoming messages to the correct user.
10
   According to a DASD PSO program official, DASD PSO briefed representatives from the Department of
State, the Regional Centers, and the Senate Armed Services Committee on the DIRI Program before
August 2011.

                                                  7

includes defined and published mission and goals, program strategy, and performance
measures and that those program elements are coordinated with other security
cooperation providers to ensure no duplication of DIB efforts.

Procedures Needed to Consistently Document DIRI
Program Efforts
CCMR program officials did not adequately implement procedures to establish a clear
tracking process for DIRI Program engagements or document all DIRI Program efforts.
Specifically, a CCMR program official stated in March 2012 CCMR began tracking
whether engagements were held. In addition, although CCMR program officials made an
effort to document DIRI Program engagements, the documentation available for
                                     175 DIRI Program engagements held through August
    Documentation accessibility      2009 and April 2012 was incomplete and
    is a control activity that can   disorganized.11 Documentation accessibility is a
     help program management         control activity that can help program management
    ensure its program meets its     ensure its program meets its objectives. The DIRI
              objectives.            Program documentation we reviewed was neither
                                     clearly labeled nor contained in a central location so
as to be easily accessible. The Director, CCMR, stated that CCMR program officials
were undertaking an effort to create a centralized website for DIB lessons learned so
those lessons can be shared with the broader DoD community.

For 24 of the 175 DIRI Program engagements, CCMR program officials did not prepare
an event plan. An event plan should document the engagement’s objectives,
methodology, and performance measures. A documented event plan would provide a
basis to measure the DIRI Program’s effectiveness in achieving partner-nation and
U.S. strategic objectives. Further, 149 event plans and 173 engagement reports lacked
approval dates and signatures. Because CCMR program officials did not adequately
implement tracking and documentation procedures, a complete record of what was
accomplished during DIRI Program engagements and lessons-learned from those
engagements were not easily accessible or disseminated. CCMR program officials
should establish procedures to consistently document individual DIRI Program efforts,
provide evidence of review and approval of those documents, and establish a tracking
method for each effort to provide effective program management and oversight of the
program.

USD(P) Did Not Develop DIB Policy
USD(P) did not develop DIB policy that would guide the DIRI Program or any other DIB
effort’s mission and goals, program strategy, or performance measures. As a result, DIB
program managers, geographic Combatant Commanders, the Regional Center Directors,
and other DIB officials did not have written guidance that governed their DIB efforts or


11
  See Appendix C for more information on the types of DIRI Program documents prepared for each
engagement as well as specific details on what documentation was missing for the 175 DIRI Program
engagements we reviewed.

                                                  8

required they develop policy and procedures to manage their DIB efforts. For the DIRI
Program, a CCMR program official stated that CCMR program officials relied mainly on
verbal and informal written guidance from DASD PSO program officials to execute the
program. Although verbal and informal written guidance may be useful, they are not
sufficient to create or to sustain strong, well-founded programs.

DIRI Program Officials Wanted Flexibility
DASD PSO and CCMR program officials stated they wanted flexibility in executing the
DIRI Program with partner nations. The DIRI Program Manager at CCMR stated that
when the DIRI Program began, DIRI Program policy would have restricted its execution
because program officials did not yet know what the best approach would be. She also
stated she received verbal and informal written direction from DASD PSO program
officials frequently, despite not having written, official DIRI Program policy. Having
official policy would help define the DIRI Program’s role in DIB as well as how the DIRI
Program fits in with other security cooperation programs. In addition, a DASD PSO
program official stated he agreed that the DIRI Program needs policy and if written
appropriately, the policy would still give them the flexibility the DIRI Program needs.

DIRI Program Challenges and Overlapping
Mission Requirements
The lack of defined policies to govern the DIRI Program as well as DoD’s DIB-related
efforts caused programmatic challenges. Specifically, DASD PSO program officials had
an insufficient basis on which to determine the effectiveness of the program or account
for the program’s results. Also, the lack of DIB policy allowed overlapping missions in
DoD’s DIB-related efforts.

DASD PSO Had Insufficient Basis on Which to Determine
Effectiveness of DIRI Program or Account for Program Results
DASD PSO program officials had an insufficient basis on which to determine the
effectiveness of the program in partnering with 17 partner nations or its use of
approximately $20.2 million provided to the program as of 3rd Quarter FY 2012 because
the DIRI Program lacked a defined and published mission and goals, strategy, and
performance measures. The DIRI Program Manager at CCMR stated she prepared
annual reports titled, “DIRI Performance Criteria and Evaluation Summary,” for DSCA
in FY 2010 and 2011. Although those reports described the DIRI Program’s
accomplishments in FY 2010 and 2011, the reports did not describe the performance
measures that were used to assess the program’s effectiveness. For example, the
FY 2010 report stated that one of the DIRI Program’s accomplishments was the program
encouraged partner-nation commitment and ownership of DIRI Program projects, which
was illustrated by a Minister of Defense routinely holding meetings with CCMR Program
officials at the end of each engagement. Even though this may provide an example of
partner-nation commitment, DASD PSO program officials did not define performance
measures as evaluation criteria for determining program effectiveness or success in this
area. As previously stated, a program’s mission defines the program’s purpose. Its goals
are the results or achievements the program directs its efforts toward. Its strategy

                                           9

identifies the processes and resources needed to achieve its goals. Its performance
measures are values or characteristics used to measure progress toward goals. USD(P)
was responsible for advising the Secretary of Defense on the effectiveness of security
cooperation efforts like the DIRI Program. Without defining these critical program
elements, DASD PSO program officials did not have a sufficient basis on which to
evaluate the DIRI Program’s effectiveness and could not account for its success or lack
thereof.

Overlapping Missions Require DIB Policy Clarification
The lack of DIB policy allowed overlapping missions in DoD’s DIB-related efforts, such
as the DIRI Program. Specifically, the commands and offices charged with DIB-related
missions did not have defined DIB roles and responsibilities. DASD PSO and CCMR
program officials stated that working with some of the Regional Centers was difficult
because some considered the DIRI Program mission to be their responsibility. The
missions of the Regional Centers seemed to be similar to the DIRI Program mission
defined in the DIRI Program’s August 2011 organizational message. For example, the
mission of the Center for Hemispheric Defense Studies stated it would:

           Develop and present academic programs tailored for the requirements of Latin American and
           Caribbean states that stimulate both civilian and military thinking about defense policy and
           civil-military relations, and provide an understanding of defense decision making and resource
           management in a democratic society. The Center [will] seek to improve civilian expertise in
           national defense and military matters, strengthen civil-military relations, and foster
           inter-governmental understanding and cooperation in democratic states in the Western
           Hemisphere by conducting a multifaceted academic program. [emphasis added]

According to the DIRI Program August 2011 organizational message, the DIRI Program:

           supports partner ministries of defense and related institutions in their efforts to address capacity
           gaps in key functions such as development of policy and strategy, ministerial organization, force
           development, budgets, human resources (including professional defense and military education),
           logistics, and civil-military relationships, and interagency coordination. [emphasis added]

The excerpts show that both the Center for Hemispheric Defense Studies and the DIRI
Program were charged with developing civil-military relations and increasing
understanding about defense policy and decision-making. The memorandum that
established the FY 2009 DIRI Program Pilot states that the funds expended for the pilot
should be consistent with the mission and authority of the Regional Centers.12 As
another example, the Defense Institute of International Legal Studies is a DoD program
that, like the DIRI Program, conducts DIB-related efforts in the interest of furthering
U.S. strategic objectives.




12
     The DIRI Program had its own funding line as of FY 2010.

                                                       10 

Without DIB policy that distinguished the DIB roles of the DIRI Program and the
                                      Regional Centers or any other office or command
         Without DIB policy that      conducting DIB-related efforts, a potential for
     distinguished the DIB roles of   duplication and inefficiency existed. As shown in
       the DIRI Program and the       the organization chart in Appendix B, multiple
     Regional Centers or any other    organizations with different chains of command
     office or command conducting     performed DIB-related efforts. To improve
    DIB-related efforts, a potential  efficiency in DoD’s DIB-related efforts, USD(P)
    for duplication and inefficiency needs to issue guidance that defines DIB roles and
                 existed.             responsibilities and implement procedures that
                                      require the coordination of DIB program’s mission
and goals, program strategy, and performance measures with other security cooperation
activities.

Program Officials Taking Steps to Improve Both DIB and
DIRI Program Structures
DASD PSO and CCMR program officials began taking steps to improve both the DIB
and DIRI Program structures. Specifically, a DASD PSO program official stated that at
his direction, CCMR program officials began drafting a DoD Instruction that establishes
DIB policy and assigns DIB roles and responsibilities in DoD. According to a DASD
PSO program official, the Instruction was expected to be issued in 2nd Quarter FY 2013.
In addition, DASD PSO program officials planned to draft a DIB implementation
strategy and guidance. Although the drafting of the Instruction and planned drafting of
the implementation strategy and guidance were important first steps, the DIRI Program
still needs a defined and published program mission and goals, program strategy, and
performance measures, so DoD can ensure the effectiveness of the program.

In addition, according to DASD PSO and CCMR program officials, CCMR program
officials were establishing a DIRI Program strategy and planning team who would be
responsible for recommending the DIB areas on which to focus in each partner nation,
capturing DIRI Program lessons-learned, and conducting assessments of each DIRI
Program initiative every 12 to 18 months. Adding a strategy and planning team should
bring more structure to the DIRI Program process; however, the team’s roles and
responsibilities must also be included in DIRI Program procedures.

Conclusion
The creation of the DIRI Program is an important component of DoD’s strategy to build
the security capacity of partner nations. However, without defined and published mission
and goals, program strategy, and performance measures, DASD PSO program officials
did not have a framework from which to determine the effectiveness of the program or
attest to its success or lack thereof. In addition, without a policy that defines DoD’s DIB
mission and roles and responsibilities and the procedures to implement that policy, DoD
had no assurance that DIB-related efforts were distinct and properly coordinated to
ensure no duplication of effort occurred. Because DIRI is an emerging and growing
program, it needs written guidance to govern the program and define how it fits with

                                            11 

other U.S. security cooperation and DIB-related efforts. Corrective actions taken will
help ensure efficient use of the approximately $12 million requested for the DIRI
Program in FY 2013.

Management Comments on the Finding and Our
Response
A summary of the comments from the DASD PSO and the Director, CCMR, on the
finding follow, along with our response. The complete text of the DASD PSO and the
Director’s comments can be found in the Management Comments section at the end of
the report.

Comments on the DIRI Program Mission, Goals, and Strategy
The DASD PSO stated that the DIRI Program’s mission, goals, and strategy were clearly
articulated, and because of this fact, his office was able to respond to the higher than
estimated demand for the program. He stated that his office used the following to
disseminate DIRI Program information: the August 2011 organizational message or
cable, the DIB conference, follow-on workshops showcasing the DIRI Program, a widely
used fact sheet, and briefing slides. The DASD PSO agreed that the distribution of this
information should always be as broad as possible.

Our Response
We disagree that the DIRI Program’s mission, goals, and strategy were clearly
articulated. The DIRI Program memorandum and organizational message issued by
DASD PSO officials did not define the program’s mission, goals, or strategy and were
not disseminated to all security cooperation providers. Although the documents
described by the DASD PSO disseminated DIRI Program information, they did not
clearly define the program’s mission and goals, program strategy, or performance
measures and were not disseminated to all security cooperation providers.

Comments on DIRI Program Performance Measures
The DASD PSO agreed that performance measures need to be developed for the DIRI
Program now that it has reached its current level of maturity. However, he stated that the
report overlooks the program’s process of establishing strategic objectives for the
program’s work in a partner nation, developing milestones to meet those objectives, and
regularly evaluating progress toward those objectives through meetings, conference calls,
and sharing engagement reports with program stakeholders.

Our Response
We disagree that performance measures are necessary only once a program has reached a
certain level of maturity. Program success is difficult to determine without defined
performance measures. Even though DIRI Program officials may have developed
strategic goals for a particular partner nation or a particular engagement, program
officials did not have metrics to determine whether those strategic goals were met.
Lastly, DIRI Program officials received approximately $20.2 million for 175 partner
nation engagements in 17 partner nations. In the current fiscal environment, program

                                           12 

officials need to account for program results through defined performance measures so
that both the taxpayers and Congress have assurance that those funds were efficiently and
effectively spent.

Comments on Coordination with Other Security
Cooperation Programs
The DASD PSO provided general comments on the difference between the DIRI
Program and the Regional Centers as well as the coordination between and among
security cooperation programs. Specifically, he stated that the Regional Centers covered
a broader range of topics than the DIRI Program and offered academic programs that
introduced countries to a range of defense concepts. He also stated that the DIRI
Program provided persistent, periodic contact to cover topics more broadly. The DASD
PSO stated that the DIRI Program and the Regional Centers actively collaborated to
avoid duplication and engaged in complementary activities with a partner nation when
the right conditions existed. Finally, he stated that the DIRI Program’s relationship and
outreach to other security cooperation activities are addressed through a number of ways
like the Global Center for Security Cooperation’s consortium, periodic telephone
conferences or meetings with other programs, and coordination with the appropriate
U.S. Embassy country team, among other means.

Our Response
We agree that the Regional Centers and the DIRI Program used different DIB methods.
However, CCMR program personnel identified challenges in working with some of the
Regional Centers because the Regional Centers believed that the DIRI Program’s mission
to build the institutional capacity of partner nations was part of their mission. In addition,
DSCA program personnel stated that the absence of formal policy resulted in friction
among the DIB programs. As stated in the finding, without DIB policy that distinguished
the DIB roles of the DIRI Program and the Regional Centers or any other office or
command conducting DIB-related efforts, a potential for duplication and inefficiency
existed.

Comments on DIRI Program Officials Wanting Flexibility
The Director, CCMR, provided general comments regarding DIRI Program guidance
provided by DASD PSO program officials and the flexibility needed by DIRI Program
officials at the outset of the program. Specifically, he stated that DASD PSO provided
well-defined program policy to the DIRI Program Manager. He also stated that if
detailed implementation guidance based on the WIF Program had been issued, CCMR
program officials would not have been able to meet its mandate of developing a DIB
approach that was suitable for countries that are not part of the Partnership for Peace.

Our Response
As previously stated, the informal verbal and written guidance provided by DASD PSO
program officials to guide the DIRI Program to date was not sufficient to define the
program’s mission and goals, strategy, or performance measures. As we previously
discussed in the finding, we understand that while DASD PSO program officials intended

                                             13 

to use the DIB process and methodology developed under the WIF Program for the DIRI
Program, that DIB process and methodology was not applicable to DIRI Program partner
nations for the reasons stated by the Director.

Comments on Tracking Engagements
The Director, CCMR, stated that CCMR program officials tracked engagements for fiscal
and programmatic purposes since it assumed management of the program from the
Global Center for Security Cooperation in FY 2010.

Our Response
CCMR program officials could not provide a complete list of DIRI Program engagements
and according to a CCMR program official, did not begin formally tracking whether
DIRI Program engagements occurred until March 2012. With regard to the DIRI
Program budget, according to a DSCA official, CCMR program officials could not
reconcile their costs, and as a result, the program’s spending reports did not identify the
specific amounts spent for contractors, travel, or lodging. In addition, a CCMR program
official responsible for tracking program funding stated that she did not track costs by
engagement, but that CCMR took actions in FY 2012 to begin tracking costs by
engagement at the request of DSCA.

Comments on DIRI Program Documentation
The Director, CCMR, provided general comments on DIRI Program engagement
documentation as well as the documentation of lessons learned. Specifically, he stated
that engagement reports existed for all 175 DIRI Program engagements, and therefore, a
complete record of the program’s accomplishments existed. He also stated that only
14 engagements lacked event plans. Lastly, he stated that no formal procedure required
the approval of engagement reports or event plans; therefore, that approval was not a
relevant measure of their program management.

With regard to the documentation of lessons learned, the Director stated that the DIRI
Program has a central repository for program documentation that captures lessons learned
from individual engagements. However, the Director stated that changes in how program
documentation was stored and the rotation of program personnel resulted in some gaps in
the historic documentation kept in that central repository. He stated that those gaps are
being addressed as a result of our audit. He also stated that CCMR program officials
were undertaking an effort to create a more formal collection of DIB lessons learned to
share them with the broader DoD community through a centralized website.

Our Response
We agree that a record of the program’s accomplishments exist as CCMR program
officials provided engagement reports for 174 of the 175 engagements that we reviewed.
We revised the report to reflect the Director’s comments. As stated in the finding and
shown in Appendix B, we found that engagement reports existed for 174 engagements,
but that 24 engagements lacked event plans. With regard to the DIRI Program’s central
documentation repository, we acknowledge that the DIRI Program has a shared document

                                            14 

file in which program documentation can be loaded. However, 73 additional documents
provided by the DIRI Program Manager at CCMR were not stored in this location. As
stated in Appendix A, DIRI Program personnel took over 4 months to locate and provide
that documentation. Therefore, we disagree that the central repository was always used
as it was intended. Without a central repository of program documentation, program
personnel would experience difficulties learning from one another’s successes or failures.
We commend CCMR program personnel’s effort to create a more formal collection of
DIB lessons learned to share them with the broader DoD community, and we revised the
finding to reflect this effort.

Lastly, the DIRI Program Manager provided us with a DIRI Reporting Timeline, which
she stated served as the program’s operating procedures. The Reporting Timeline
indicated that the DIRI Program Chief of Staff was to approve program documentation.
However, we generally could not find proof of such approval of DIRI Program
documentation. In fact, we found that sometimes CCMR program personnel provided
multiple versions of each document, and it was not possible to determine which
documents were the final, approved versions. Documentation accessibility is a control
activity that can help program management ensure its program meets its objectives.
Program personnel or other interested parties with access to the program documentation
would not be able to determine whether a document was the final, approved version and
rely upon that document without evidence of review and approval.

Comments on Overlapping Mission Requirements
The Director, CCMR, stated that the parameters defined in the memorandum that
established the FY 2009 DIRI Program Pilot no longer applied to the DIRI Program once
the DASD PSO transferred its management to CCMR. He explained that the DIRI
Program cannot operate in accordance with the Regional Centers’ mission and authority
because it is funded with Title 10, Operations and Maintenance funding. Furthermore, he
stated that the DIRI Program is prohibited from engaging in education and training. The
Director explained that the DIRI Program’s mission is to engage in a sustained fashion
with partner nation personnel to facilitate concrete changes in the way that ministry
operates. By contrast, he stated the Regional Centers fund educational programs.

Our Response
We recognize that the funding provided for the FY 2009 DIRI Program pilot was
different from the funding CCMR received to execute the current DIRI Program. We
also recognize that the means of conducting DIB is distinct for each program. However,
aspects of the DIB mission can overlap across security cooperation activities, and without
defined DIB roles and responsibilities and procedures that require coordination among
security cooperation activities, the potential for duplication and inefficiency exist.




                                           15 

Recommendations, Management Comments, and Our
Response
1. We recommend the Under Secretary of Defense for Policy issue guidance that:

        a. Defines the Defense Institution Reform Initiative Program’s mission and
goals, program strategy, and performance measures.

       b. Defines defense institution building roles and responsibilities.

        c. Implements procedures that require the coordination of the defense
institution building program’s mission and goals, program strategy, and
performance measures with other security cooperation activities.

DASD PSO Comments
The DASD PSO partially agreed with Recommendations 1.a and 1.b. He stated that his
office, CCMR, and DSCA were working on a DoD Instruction for DIB that will address
the matters addressed by both of these recommendations. He agreed that DIRI Program
performance measures were not fully developed and stated that the program was now
mature and needed performance measures over the next year. The DASD PSO stated that
when the performance measures are completed, his office will work with DSCA to
publish those measures as guidance to CCMR and distribute them to Combatant
Commands, USD(P) regional offices, and U.S. Embassy country teams.

The DASD PSO, also partially agreed with Recommendation 1.c. He stated that DIB
activities were already coordinated by the Global Center for Security Cooperation’s
consortium, calendar, and periodic reports. He stated that direct coordination occurs
between and among DIB-related programs. He reiterated that his office, CCMR, and
DSCA program officials are working on a DoD Instruction for DIB that will fully address
coordination challenges when it is issued.

Our Response
Although the DASD PSO partially agreed with the recommendations, we consider his
comments only partially responsive. While the DASD PSO intends to issue a
DoD Instruction, his comments were unclear as to whether the Instruction will require
security cooperation activities to coordinate their DIB-related efforts. We request that the
DASD PSO provide comments to the final report to specifically address how the
DoD Instruction will address coordination challenges. The DASD PSO should also
indicate when he plans to issue the DoD Instruction.

2. We recommend the Director, Center for Civil-Military Relations, develop and
implement procedures to document all individual Defense Institution Reform
Initiative Program efforts, provide evidence of review and approval of those
documents, and establish a clear tracking method for each effort.



                                            16 

CCMR Comments
The Director, CCMR, agreed with the recommendation with comment. The Director
stated that procedures that require the documentation of program efforts, with the
exception of some event plans, already existed and were fully implemented. He stated
that procedures are being developed to require the review of program documents by
appropriate program authorities and those documents will be saved as Adobe Acrobat
(.pdf) files. Lastly, the Director stated that DIRI program officials were already tracking
each DIRI Program engagement.

Our Response
Although the Director, CCMR, agreed with the recommendation, we consider his
comments to be nonresponsive because CCMR program personnel have not fully
established and implemented procedures that require all DIRI Program efforts be
documented and stored in a central location. As detailed by the finding and our responses
to the Director’s comments on the finding, not all of the program documentation we
reviewed was stored in a central location. As previously discussed, DIRI Program
personnel took over 4 months to locate and provide all of the program documentation we
requested. Therefore, we disagree that the central repository was always used as it was
intended. We also disagree that CCMR program personnel tracked what DIRI Program
engagements occurred as they could not provide a list of the DIRI Program engagements
that occurred since the inception of the program.

We request that the Director provide additional comments to the final report specifying
the procedures he plans to implement to ensure all DIRI Program efforts are documented
and maintained in a central location. The Director should also specify when he plans to
implement those procedures.




                                            17 

Appendix A. Scope and Methodology
We conducted this performance audit from January 2012 through September 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our objective was to determine the effectiveness of the DIRI process regarding
identifying and sustaining defense capabilities of its partner nations. Specifically, we
were to determine whether the DIRI process effectively supports partner nations through
country coordination, requirements determination, and program management. As
detailed by the finding, DASD PSO program officials had an insufficient basis on which
to determine the program’s effectiveness. As such, we determined whether the DIRI
Program published information was sufficient to define the program’s mission and goals,
program strategy, and performance measures and whether defense institution building
policy or procedures existed. We also determined whether CCMR program officials
maintained sufficient DIRI Program documentation.

During our audit, we reviewed the GAO, “Standards for Internal Control in the Federal
Government,” November 1999, and DoD Instruction 5025.01, “DoD Directives
Program,” October 28, 2007 (updated as of July 1, 2010), to determine what constitutes
policy. We also reviewed Chairman of the Joint Chiefs of Staff Instruction 5721.01E,
“The Defense Message System and Associated Legacy Message Processing Systems,”
August 13, 2010, to determine the capabilities and limitations of the system used to send
the DIRI Program August 2011 organizational message.

We interviewed 15 personnel associated with the DIRI Program at the DASD PSO,
DSCA, and CCMR to determine whether any DIRI Program or DIB policy or procedures
existed. None of those 15 personnel identified sufficient policy or procedures that
governed the DIRI Program or described its mission and goals, program strategy, and
performance measures.

We created a list of 175 DIRI Program engagements conducted with 17 partner nations
through August 2009 and April 2012 using DIRI Program documentation provided by
CCMR program officials. According to a CCMR program official, CCMR did not begin
to track whether planned DIRI Program engagements occurred until March 2012. As
such, we cannot attest to the completeness of the list of engagements. We reviewed the
CCMR DIRI Program documentation for those 175 DIRI Program engagements to
determine whether CCMR program officials maintained sufficient documentation. The
documentation we reviewed included event plans, engagement reports, implementation
strategies, and country information papers. We verified whether the documentation
existed, as required by DASD PSO and CCMR program officials, and whether it was
dated and approved. We initially requested all DIRI Program engagement documentation
during our site visit to CCMR in April 2012. However, at that time, CCMR program


                                           18 

officials could provide only a portion of that documentation. CCMR program officials
provided more documentation through May and September 2012 as they located it.

We constructed the chart in Appendix B using program management and oversight
responsibilities identified by the following DoD guidance: DoDD 5100.01, “Functions of
the Department of Defense and Its Major Components,” December 21, 2010;
DoDD 5111.13, “Assistant Secretary of Defense for Homeland Defense and Americas’
Security Affairs (ASD(HD&ASA)),” January 16, 2009; DoDD 5200.41, “DoD Centers
for Regional Security Studies,” July 30, 2004, certified current as of December 5, 2008;
DoDD 5111.17, “Assistant Secretary of Defense for Asian and Pacific Security Affairs
(ASD(APSA)),” October 29, 2008; DoDD 5111.1, “Under Secretary of Defense for
Policy (USD[P]),” December 8, 1999; DoDD 5105.65, “Defense Security Cooperation
Agency (DSCA),” October 31, 2000, certified current as of November 21, 2003; DSCA
Manual 5105.38-M, “Security Assistance Management Manual,” April 30, 2012; and
Chairman of the Joint Chiefs of Staff Instruction 1801.01C, “National Defense University
Policy,” September 2, 2011. We relied on testimonial evidence provided by multiple
DASD PSO program officials to determine how the DIB programs were managed
because USD(P) had not established DIB policy that defined roles and responsibilities.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, GAO and DoDIG have issued four reports related to DIB.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov/.
Unrestricted DoDIG reports can be accessed at http://www.dodig.mil/.

GAO
Report No. GAO-12-556, “Security Force Assistance: Additional Actions Needed to
Guide Geographic Combatant Command and Service Efforts,” May 10, 2012

Report No. GAO-11-907, “Afghanistan Governance: Performance-Data Gaps Hinder
Overall Assessment of U.S. Efforts to Build Financial Management Capacity,”
September 20, 2011

Report No. GAO-11-710, “Actions Needed to Improve Accountability of U.S. Assistance
to Afghanistan Government,” July 20, 2011

DoDIG
Report No. DODIG-2013-005, “Performance Framework and Better Management of
Resources Needed for the Ministry of Defense Advisors Program,” October 23, 2012




                                          19 

Appendix B. DIB Entities
Figure B on the following page illustrates some of the DoD entities involved in DIB
efforts, the chains of command those entities report to, and what responsibilities those
entities have for DoD’s formal DIB programs. As evidenced by Figure B, DoD has
several entities who conduct DIB efforts and those entities report through different chains
of command. We relied on testimonial evidence provided by DASD PSO program
officials to determine how the DIB programs were managed because USD(P) had not
established DIB policy that defined roles and responsibilities. See Appendix A for more
information on how we created Figure B.

In Figure B, programs illustrated by green boxes represent those identified by DASD
PSO program officials as DIB programs. The blue boxes represent the entities involved
in DIB-related efforts. The DIB-related efforts included building partner nations’ defense
institution capacity. A solid black line identifies the chain of command or program
management authority. A dotted line identifies policy oversight for a particular DIB
program. A dashed line identifies budget execution and resource management for that
DIB program or entity. The half circle with a line going through it indicates separate
lines of authority. For instance, see the line that goes from DSCA to CCMR breaks or
“jumps” through the line that goes from the Assistant Secretary of Defense for Special
Operations/Low-Intensity Conflict to DASD PSO. This indicates DSCA does not have
command authority over DASD PSO.




                                            20 

                                                                                  Figure B. Several Entities Involved in Defense 

                                                                                        Institution Building Across DoD


                                                                                                            Secretary of Defense




     Chairman,
Joint Chiefs of Staff
                                                                                                                                                                                                                      Secretary of
                                                 U.S.            U.S.           U.S.           U.S.         U.S.           U.S.              Under Secretary of Defense for Policy                                     the Navy
                                                Pacific        European       Northern        Central     Southern         Africa
                                               Command         Command        Command        Command      Command        Command

                                                                                                                                                                                                                     Chief of Naval
                                                                                                                                                                                                                      Operations
 National Defense
    University
                                                                                    ASD Asian & Pacific         ASD Homeland Defense &                                                                  ASD
                                                                                                                                                  ASD International Security Affairs
                                                                                      Security Affairs          Americas’ Security Affairs                                                             SO/LIC
                                                                                                                                                                                                                        Naval
                                                                                                                                                                                                                     Postgraduate
                                                                                                                                                                                                                       School
                                                                                                                                                                                               DSCA1
                                                                                 DASD                       DASD                                     DASD
                                                                                                                         DASD          DASD                         DASD         DASD
                                                                              Afghanistan,     DASD        South &                                   Russia,                                           DASD
                                                                                                                        Western       Europe &                      Middle       African
                                                                              Pakistan, &     East Asia   Southeast                                 Ukraine, &                                         PSO
                                                                                                                       Hemisphere      NATO                          East        Affairs
                                                                              Central Asia                   Asia                                    Eurasia                                                              CCMR
                                                                 George C.
                  Near East
 Center for                         Africa      Asia-Pacific      Marshall
                  South Asia
Hemispheric                       Center for     Center for      European
                  Center for                                                                                                                                                               DIILS       MoDA2
 Defense                          Strategic       Security       Center for
                   Strategic
  Studies                          Studies        Studies         Security
                   Studies
                                                                  Studies
                                                                                                                                                                                                                   WIF3        DIRI




          Acronyms
                                                                                                                                                                 Key
          ASD SO/LIC     Assistant Secretary of Defense for Special Operations/      DIRI                  Defense Institution Reform Initiative                                                       Regional Centers
                            Low-Intensity Conflict                                   DSCA                  Defense Security Cooperation Agency                          Program management/
          DASD PSO       Deputy Assistant Secretary of Defense for                   MoDA                  Ministry of Defense Advisors                                 command authority
                            Partnership Strategy and Stability Operations            Regional Centers      DoD Centers for Regional Security Studies                                                   USD(P) Regional Offices
          DIB            Defense Institution Building                                USD(P)                Under Secretary of Defense for Policy                        Provide policy oversight
          DIILS          Defense Institute of International Legal Studies            WIF                   Warsaw Initiative Fund                                                                      Geographic Combatant
                                                                                                                                                                                                       Commands
                                                                                                                                                                        Budget execution/
                                                                                                                                                                        resource management            Involved in Defense
   1
       As stated in the report, DSCA reports to the USD(P) Chief of Staff.                                                                                                                             Institution Building-Related
   2
     According to the DASD PSO, his office provided program management for the MoDA Program. However, according to a DASD PSO official, his office                                                     Efforts
                                                                                                                                                                        Separate lines of
   planned to delegate program management responsibilities to DSCA’s Centers Management Office in FY 2013.
                                                                                                                                                                        authority                      Defense Institution Building
   3
    DASD PSO officials provided overall program management for the WIF Program. According to a CCMR program official, CCMR managed
                                                                                                                                                                                                       Programs
   DIB-related WIF activities, while the geographic Combatant Commands managed combined exercises and military-to-military activities. For this chart,
   we are only referring to the WIF DIB component, so we did not depict the geographic Combatant Command’s WIF program management.

                                                                                                                  21
Appendix C. DIRI Program Documentation
The DIRI Program used different types of documentation to plan, execute, and report on
DIRI Program partner nation engagements. While conducting our audit, we determined
whether CCMR program officials prepared an implementation strategy to guide the
program’s efforts for each partner nation, and whether they consistently prepared event
plans and reports for each engagement.

Implementation Strategies
The DIRI Program Manager at CCMR and a CCMR program official stated an
implementation strategy should identify how CCMR program officials planned to achieve
the mutual objectives of the U.S. and its partner nation. Also, according to the DIRI
Program Manager at CCMR, the implementation strategy generally should be prepared
after the first few engagements with a partner nation. During our review, we found
CCMR program officials did not consistently prepare implementation strategies by the
third engagement. Sometimes, they did not prepare one at all, or the implementation
strategy was not dated, so we could not determine whether it was prepared in a timely
manner.

Event Plans and Engagement Reports
According to the DIRI Reporting Timeline, before an engagement with a partner nation,
CCMR program officials would prepare an event plan, which should identify the
engagement’s objectives and deliverables. After the engagement was complete, CCMR
program officials were supposed to prepare a 1- to 2-page engagement report, which
detailed that engagement’s activities and accomplishments. We found CCMR program
officials did not consistently prepare event plans for all 175 DIRI Program engagements
held in 17 partner nations. We also found CCMR program officials generally did not
include an approval date and signature on event plans or engagement reports. See Table
C for the results of our analysis.

In Table C, a cell shaded in green means that CCMR program officials prepared event
plans or engagement reports for all of the engagements held in that partner nation. Cells
shaded in yellow represent partner nations for which CCMR program officials prepared
event plans or engagement reports for at least half of the engagements held. Cells shaded
in red represent partner nations for which CCMR program officials prepared event plans
or engagement reports for fewer than half of the engagements held. With regard to the
Dated and Approved columns, if CCMR program officials did not have an event plan or
engagement report for a particular engagement as illustrated by the Documented
columns, we did not count that missing event plan or engagement report again in the
Dated and Approved column.



 According to a CCMR program official, DIRI Program country information papers were an important
supplement to the engagement reports. She stated a country information paper provided a “big picture”
perspective on the country projects, the overarching strategic objectives the projects contribute to, the
specific project objectives, and key milestones and accomplishments.

                                                     22 

                Table C. CCMR Program Officials Did Not Consistently 

                         Prepare Engagement Documentation 


Partner      Total Partner                       Number of Engagements Without
Nation          Nation
                                              Event Plan                    Engagement Report
             Engagements
                                                      Dated and                             Dated and
                                  Documented                            Documented
                                                      Approved                              Approved
A                    5                   4                1                    0                5
B                    8                   0                8                    0                8
C                   11                   1               10                    0               11
D                    6                   4                2                    0                6*
E                    9                   2                7                    0                9
F                    9                   0                9*                   0                8
G                   57                   9               48                    1               56*
H                   10                   1                9                    0               10
I                   1                    0                1                    0                1
J                   15                   0               15                    0               15
K                    6                   0                5                    0                6
L                   11                   0               11                    0               11
M                    5                   0                5                    0                5
N                   11                   1                9                    0               11
O                    8                   2                6                    0                8
P                    1                   0                1                    0                1
Q                    2                   0                2                    0                2
    Total          175                   24              149                   1               173

Note: We assigned a generic letter of the alphabet to each partner nation for anonymity.
*
  Partner nation F had an event plan that was approved but not dated. Partner nations D and G each had an
approved engagement report that was not dated.
Source: CCMR




                                                  23 

Deputy Assistant Secretary of Defense for Partnership   Final Report
Strategy and Stability Operations Comments               Reference




                  Click to add JPEG file




                                   24
                            Final Report 

                             Reference





                         Page 16 

Click to add JPEG file




                         Page 16





                 25
                         Final Report 

                          Reference





Click to add JPEG file




                 26
Center for Civil-Military Relations Comments      Final Report
                                                   Reference




                  Click to add JPEG file




                                               Revised, page 5





                                   27
                            Final Report 

                             Reference





                         Added, page 8 





Click to add JPEG file




                 28
                            Final Report 

                             Reference





                         Page 10 



                         Page 10 

Click to add JPEG file




                         Page 10





                 29
Click to add JPEG file




                 30
